XII. Statement of the Case

Provide a concise statement of the case containing the facts material to the consider­
ation of the question(s) presented;.you should summarize the relevant facts of the case
and the proceedings that took place in the lower courts. You may need to attach
additional pages, but the statement should be concise and limited to the relevant facts
of the case.
XIII.

Reasons for Granting the Petition

The purpose of this section of the petition is to explain to the Court why it should
grant certiorari. It is important to read Rule 10 and address what compelling reasons
exist for the exercise of the Court’s discretionary jurisdiction. Try to show not only
why the decision of the lower court may be erroneous, but the national importance of
having the Supreme Court decide the question involved. It is important to show
whether the decision of the court that decided your case is in conflict with the decisions
of anqther appellate court; the importance of the case not only to you but to others
similarly situated; and the ways the decision of tlie lower court in your case was errone­
ous. You will nebd td attach additional pages, but the reasons should be as concise as
possible, consistent with thfe purpose of this seetiori of the petition.
y

- y :

XIV. Conclusion .

:

y ^

vy"

y v',’

y./y

a?

r

.■

. .

y. -y, y

v
.
Enter your name and the date that you submit the petition.
XV.

. .. /

:

Proof of Service

You must serve a copy of your petition on counsel for respondent^) as required by
Rule 29. If you serve the petition by first-class mail or by third-party commercial
carrier, you may use the enclosed proof of service form. If the United States or any
department, office, agency, officer, or employee thereof is a party, you must serve the
Solicitor General of the United States, Room 5614, Department of Justice, 950 Pennsyl­
vania Ave., N.W., Washington, D. C. 20530-0001. The lower courts that ruled on your
case are not parties and need not be served with a copy of the petition. The proof of
service may be in the form of a declaration pursuant to 28 U. S. C. § 1746.

1
Supreme Court of jflortba
WEDNESDAY, MAY 20, 2020
CASE NO.: SC20-715
Lower Tribunal No(s).:
2D 19-3 829; 292000CF012480000AHC
JOHN DAVID WILSON, JR.

, vs.

Petitioner(s)

STATE OF FLORIDA
^Respondents)

-...

This case is hereby dismissed. This Court’s jurisdiction to issue
extraordinary-' writs may not be used to seek review of an unelaborated decision
from a district court of appeal that is issued without opinion or explanation or that
merely cites to an authority that is not a case pending .review in, or reversed or .
quashed by, this Court. See Foley v. State, 969 So; 2d 283 (Fla. 2007); Persaud v.
State, 838 So. 2d 529 (Fla. 2003); Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002);
Grate v. State, 750 So. 2d 625 (Fla. 1999).
. No motion-for rehearing or reinstatement will be entertained by the Court.
FT

%

A True Copyh
Test:

.

’

" i

. J ohn A . T omasino Clerk. Suprehie Court
td
Served:
C. SUZANNE BECHARD
JOHN DAVID WILSON, JR.
HON. PAT FRANK, CLERIC
HON. MARY BETH KUENZEL, CLERK .
T-.

-vU

" • ' :'.U

As an example, if the state trial court ruled against you, the intermediate court
of appeals affirmed the decision of the trial court, the state supreme court denied
discretionary review and then denied a timely petition for rehearing, the appen­
dices should appear in the following order:
Appendix A, Decision of State Court of Appeals
Appendix B Decision of State Trial Court
Appendix C Decision of State Supreme Court Denying Review
Appendix D Order of State Supreme Court Denying Rehearing
VIII. Table of Authorities
On the page provided, list the cases, statutes, treatises, and articles that you reference
in your petition, and the page number of your petition where each authority appears.
IX. Opinions Below
In the space provided, indicate whether the opinions of the lower courts in your case
have been published, and if so, the citation for the opinion below. For example, opin­
ions of the United States courts of appeals are published in the Federal Reporter. If
the opinion in your case appears at page 100 of volume 30 of the Federal Reporter,
Third Series, indicate that the opinion is reported at 30 F. 3d 100. If the opinion has
been designated for publication but has not yet been published, check the appropriate
space. Also indicate where in the appendix each decision, reported or unreported,
appears.
X. Jurisdiction
The purpose of the jurisdiction section of the petition is to establish the statutory
source for the Court’s jurisdiction and the dates that determine whether the petition
is timely filed. .The form sets out the pertinent statutes for federal and state cases.
You need provide only the dates of the lower court decisions that establish the timeli­
ness of the petition for a writ of certiorari. If an extension of time within which to
file the petition for a writ of certiorari was granted, you must provide the requested
information pertaining to the extension. If you seek to have the Court review a deci­
sion of a state court, you must provide the date the highest state court decided your
case, either by ruling on the merits or denying discretionary review.
XI. Constitutional and Statutory Provisions involved
Set out verbatim the constitutional provisions, treaties, statutes, ordinances and regu­
lations involved in the case. If the provisions involved are lengthy, provide their cita­
tion and indicate where in the Appendix to the petition the text of the provisions
appears.

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
JOHN D. WILSON,
Appellant,
v.
STATE OF FLORIDA,
Appellee.

)
)
)
)
)
)
)
)
)
)

Case No. 2D 19-3829
'r‘t

-V

Opinion filed April 1, 2020.
Appeal pursuant to Fla. R. App. P.
\
9.141(b)(2) from the Circuit Court
for Hillsborough County; Mark D. Kiser,
Judge.
John D. Wilson, pro se.
PER CURIAM.
Affirmed. See Martinez v. State. 211 So. 3d 989 (Fla. 2017); Mendenhall
v. State. 48 So. 3d 740 (Fla. 2010); McDonald v. State. 133 So. 3d 530 (Fla. 2d DCA
2013); Hughes v. State. 22 So. 3d 132 (Fla. 2d DCA 2009); Coughlin v. State. 932 So.
2d 1224 (Fla. 2d DCA 2006) (en banc); Shortridoe v. State. 884 So. 2d 321 (Fla. 2d
4 *- -

DCA 2004); Pitts v. State. 832 So. 2d 260 (Fla. 2d DCA 2002); Brown v. State. 827 So.
2d 1054 (Fla. 2d DCA 2002): Flowers v. State. 69 So. 3d 1042 (Fla. 1st DCA 2011); ’

NORTHCUTT, MORRIS, and LUCAS, JJ„ Concur.

J

On the same page, list all cases in other courts that are directly related to the case m
this Court. A case is “directly related” if it arises from the same trial court case as
the case in this Court (including the proceedings directly on review in this case), or if
it challenges the same criminal conviction or sentence as is challenged in this Court,
whether on direct appeal or through state or federal collateral proceedings. Below is
an example of the format that should be used for this list:
• Smith v. Jones, No. 18-cv-200, U. S. District Court for the Western District of
Pennsylvania. Judgment entered Oct. 1, 2018.
• Smith v. Jones, No. 18-1200, U. S. Court of Appeals for the Third Circuit. Judg­
ment entered Apr. 15, 2019.
VI. Table of Contents
On the page provided, list the page numbers on which the required portions of the
petition appear. Number the pages consecutively, beginning with the “Opinions
Below” page as page 1.
VII. Index of Appendices
List the description of each document that is included in the appendix beside the appro­
priate appendix letter. Mark the bottom of the first page of each appendix with the
appropriate designation, e.g., “Appendix A.” See Rule 14.1 pertaining to the items to
be included in the appendix.
\
A. Federal Courts
If you are asking the Court to review a decision of a federal court, the decision
of the United States court of appeals should be designated Appendix A.
Appendix A should be followed by the decision of the United States District
Court and the findings and recommendations of the United States magistrate
judge, if there were any. If the United States court of appeals denied a timely
filed petition for rehearing, a copy of that order should be appended next. If
you are seeking review of a decision in a habeas corpus case, and the decision of
either the United States District Court or the United States Court of Appeals
makes reference to a state court decision in which you were a party, a copy of
the state court decision must be included in the appendix.
B. State Courts
If you are asking the Court to review a decision of a state court, the decision of
which review is sought should be designated Appendix A. Appendix A should
be followed by the decision of the lower court or agency that was reviewed in
the decision designated Appendix A. If the highest court of the state in which a
decision could be had denied discretionary review, a copy of that order should
follow. If an order denying a timely filed petition for rehearing starts the run­
ning of the time for filing a petition for a writ of certiorari pursuant to Rule 13.3,
a copy of the order should be appended next.

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

April 15, 2020
CASE NO.: 2D19-3829
L.T. No.: 00-CF-12480
JOHN D. WILSON

v.

Appellant / Petitioner(s)

STATE OF FLORIDA
Appellee / Respondent(s).

BY ORDER OF THE COURT:
•~

Appellant's pro se motion for an extension of time to file a motion for rehearing is
granted. The motion may be filed within 45 days from the date of.this order. Appellant
^should not anticipate any further extensions of time unless exceptional circumstances
can be,shown.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
ATTORNEY GENERAL, TAMPA
JOHN D. WILSON

WILLIAM STONE, JR., A.A.G.
PAT FRANK, CLERK

, :

lb

ft

if

Mar^Eli^beth Kuenzel
Clerk

V

4
/

i

II. Affidavit or Declaration in Support of Motion for Leave to Proceed In Forma
Pauperis

On the form provided, answer fully each of the questions. If the answer to a question
is “0,” “none,” or “not applicable (N/A),” enter that response. If you need more space
to answer a question or to explain your answer, attach a separate sheet of paper,
identified with your name and the question number. Unless each question is folly
answered, the Clerk will not accept the petition. The form must either be notarized
or be in the form of a declaration. See 28 U. S. C. § 1746.
III. Cover Page - Rule 34

When you complete the form for the cover page:
A. Leave case number blank. The number will be assigned by the Clerk when
the case is docketed.
:

B. Complete the case caption as you did on the motion for leave to proceed in
forma pauperis.
.
C. List the court from which the action is brought on the line following the
words “on petition for a writ of certiorari to.” If your case is from a state court,
enter the name of the court that last addressed the merits of the case. For
example, if the highest state court denied discretionary review, and the state
court of appeals affirmed the (lecision of the trial court, the state court of
appeals should be listed. If your case is federal, the United States court of
appeals that decided your case will always be listed here.
D. Enter your name, address, and telephone number in the appropriate spaces.
IV. Question(s) Presented

On the page provided, enter the question or questions that you wish the Court to
review. The questions must be concise. Questions presented in cases accepted for
review are usually no longer than two or three sentences. The purpose of the question
presented is to assist the Court in selecting cases. State the issue you wish the Court
to decide clearly and without unnecessary detail.
V.

List of Parties and Related Cases

On the page provided, check either the box indicating that the names of all parties
appear in the caption of the case on the cover page or the box indicating that there are
additional parties. If there are additional parties, list them. Rule 12.6 states that all
parties to the proceeding whose judgment is sought to be reviewed shall be deemed
parties in this Court, and that all parties other than petitioner shall be respondents.
The court whose judgment you seek to have this Court review is not a party.

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
May 19, 2020
CASE NO.: 2D19-3829
L.T. No.: 00-CF-12480
JOHN D. WILSON
Appellant / Petitioner(s)

v.

STATE OF FLORIDA
Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's amended motion for rehearing is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.

Served:
ATTORNEY GENERAL/TAMPA
JOHN D. WILSON
ag

Mary Elizabeth Kuenzel
Clerk

WILLIAM STONE, JR„ A.A.G.
PAT FRANK, CLERK

whether on direct appeal or through state or federal collateral proceedings. .Below is
an example of the format that should be used for the list:
V. Page Limitation
The petition for a writ of certiorari may not exceed 40 pages excluding the pages that
precede Page1 of the form. The documents required to be contained in the appendix
to the petition do not count toward the page limit. See Rule 33.2(b).
VI. Redaction of Personal Information
Pursuant to Rule 34.6, certain types of personal information should not be included in
filings. For example, social security numbers and taxpayer identification numbers
should be redacted so that only the last four digits of the number are included, and the
names of minor children should be redacted so that only initials are included. In gen­
eral, Rule 34.6 adopts the redaction practices that are applicable to cases in the lower
federal courts. See, e.g., Federal Rule of Civil Procedure 5.2.
VII. Method of Filing
All documents to be filed in this Court must be addressed to the Clerk, Supreme Court
of the United States, Washington, D. C. 20543 and must be served on opposing parties
or their counsel in accordance with Rule 29.
:
!

INSTRUCTIONS
FOR
FORMS
«
•' 1 : COMPLETING
•
I.

Motion for Leave to Proceed In Forma Pauperis - Rule 39
A. On the form provided for the motion for leave to proceed in forma pauperis,
leave the case number blank. The number will be assigned by the Clerk when
the case is docketed.
B. On the line in the case caption for “petitioner”, type your name. As a pro
se petitioner, you may represent only yourself. On the line for “respondent”,
type the name of the opposing party in the lower court. If there are multiple
respondents, enter the first respondent, as the name appeared on the lower court
decision, followed by “et al.” to indicate that there are other respondents. The
additional parties must be listed in the LIST OF PARTIES section of the
petition.
C. If the lower courts in your case granted you leave to proceed in forma pau­
peris, check the appropriate space and indicate the court or courts that allowed
you to proceed in forma pauperis. If none of the lower courts granted you
leave to proceed in forma pauperis, check the block that so indicates.
D. Sign the motion on the signature line.

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

June 05, 2020
CASE NO.: 2D19-3829
L.T. No.: 00-12480

v.

JOHN D. WILSON

STATE OF FLORIDA
Appellee / Respondent(s).'

Appellant / Petitioner(s)
.. • .•/ <.

BY ORDER OF THE COURT:

■X

- *,

L

,r,.

Article I, section 16(b)(10)(b), Florida Constitution, provides that air state-level
appeals and collateral attacks on any judgment must be complete within two years from
the date of appeal in noncapital cases unless a court enters an order with specific
findings as to why the court was unable to comply and the circumstances causing the
delay. Pursuant to the administrative procedures and definitions set forth in Supreme
Court of Florida Administrative Order No. AOSC19-76, this case was not completed
within the required time because the case was initiated in this court after the time had
already expired.
This order is for reporting purposes only. It does not affect the decision in this
case or the date of the mandate if one has issued, and it has no effect on related
proceedings in the lower tribunal or in federal court.
I

I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
ATTORNEY GENERAL, TAMPA
JOHN D. WILSON
vh

I
V

Clerk

PAT FRANK, CLERK

\

C7^

13.3. Filing in the Supreme Court means the actual receipt of paper documents by
the Clerk; or their deposit in the United States mail, with first-class postage prepaid,
on or before the final date allowed for filing; or their delivery to a third-party commer­
cial carrier, on or before the final date allowed for filing, for delivery to the Clerk
within 3 calendar days. See Rule 29.2. . .
IV. What To File
Unless you are an inmate confined in an institution and not represented by counsel,
file:
—An original and ten copies of a motion for leave to proceed in forma pauperis and
an original and 10 copies of an affidavit or declaration, in support thereof. See Rule 39.
—An original and 10 copies of a petition for a writ of certiorari with an appendix
consisting of a copy of the judgment or decree you are asking this Court to review
including any order on rehearing, and copies of any opinions or orders by any courts or
administrative agencies that have previously considered your case. See Rule 14.1(i).
’ ^One affidavit or declaration showing that all opposing parties or their counsel have
been served with a copy of the papers filed in this Courtr-'Sep KhIp 2if.
—
If you are an inmate confined in an institution and not represented by counsel, you need
file only the original of the motion for leave to proceed in forma pauperis, affidavit or
declaration when needed in support of the motion for leave to proceed in forma pau­
peris, the petition for a writ of certiorari, and proof of service.
I:
iourt below appointed counsel in the current proceeding, no affidavit or declara­
tion is required, but the motion should cite the provision of law under which counsel
was appointed, or a copy of the order of appointment should be appended to the motion.
See Rule 39.1.
The attached forms may be used for the original motion, affidavit or declaration, and
petition, and should be stapled together in that order. The proof of service should be
included as,a detached sheet, and the form provided may be used.
The Court’s practice is to scan and make available on its website most filings submitted
by litigants representing themselves. The Court scans petitions, motions to proceed
in forma pauperis, proofs of service, and the portion of an appendix that includes
relevant lower court opinions and rulings. While the Court does not scan other por­
tions of an appendix from a pro se litigant, the entire appendix is folly a part of the
Court’s record and is available to the Justices.
On the same page, list all cases in other courts that are directly related to the case in
this Court. A case is dirrctly related if it arises from the same trial court case as the
case in this Court;(including the proceedings directly on review in.this case), or if it
challenges the same criminal conviction or sentence as is challenged in this Court,

MAN

D

A

T

E

from

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA

SECOND DISTRICT
THIS CAUSE HAVING BEEN BROUGHT TO THIS COURT BY APPEAL, AND
AFTER DUE CONSIDERATION THE COURT HAVING ISSUED ITS OPINION;
YOU ARE HEREBY COMMANDED THAT SUCH FURTHER PROCEEDINGS
BE HAD IN SAID CAUSE, IF REQUIRED, IN ACCORDANCE WITH THE OPINION OF
\

THIS COURT ATTACHED HERETO AND INCORPORATED AS PART OF THIS ORDER
• AND WITH THE RULES OF PROCEDURE AND LAWS OF THE STATE OF FLORIDA.

„

£
'v?. V

WITNESS THE HONORABLE NELLY N. KHOUZAM CHIEF JUDGE OF THE
• DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA, SECOND DISTRICT, AND
THE SEAL OF THE SAID COURT AT LAKELAND, FLORIDA ON THIS DAY.
DATE: June 03, 2020
SECOND DCA CASE NO. 19-3829
COUNTY OF ORIGIN:

Hillsborough

LOWER TRIBUNAL CASE NO. 00-CF-12480
CASE STYLE:

JOHN D. WILSON

fv. STATE OF FLORIDA

Mary Elizabeth Kuenzel
Clerk
. cc:
ATTORNEY GENERAL, TAMPA
JOHN D. WILSON
mep

WILLIAM STONE, JR., A.A.G.
PAT FRANK, CLERK

